APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals for the Tenth Circuit, Caldara v.
City of Boulder, No. 18-1421 (April 10,
2020) ............................................................ App-1
Appendix B
Order of the United States Court of
Appeals for the Tenth Circuit Denying
Petition for Rehearing En Banc, Caldara v.
City of Boulder, No. 18-1421 (June 11,
2020) ............................................................ App-18
Appendix C
Opinion and Order of the United States
District Court for the District of Colorado,
Caldara v. City of Boulder, No. 18-cv-01211
(Sept. 17, 2018) ............................................ App-20
Courtroom Minutes regarding Pullman
briefing of the United States District Court
for the District of Colorado, Caldara v. City
of Boulder, No. 18-cv-01211 (Aug. 15,
2018) ............................................................ App-36
Appendix D
Constitutional and Statutory Provisions Involved
U.S. CONST. Amend. II ................................
U.S. CONST. Amend. V ................................
U.S. CONST. Amend. XIV ............................
C.R.S. § 18-12-301 .......................................
C.R.S. § 29-11.7-101 ....................................
C.R.S. § 29-11.7-102 ....................................
C.R.S. § 29-11.7-103 ....................................

App-39
App-39
App-39
App-40
App-41
App-42
App-43

Appendix E
Ordinance 8245 - City Council of the City of
Boulder......................................................... App-47
Ordinance 8259 - City Council of the City of
Boulder......................................................... App-67

App-1

Appendix A
PUBLISH
UNITED STATES COURT OF APPEALS
TENTH CIRCUIT
JON C. CALDARA;
BOULDER RIFLE CLUB,
INC.; GENERAL
COMMERCE, LLC; TYLER
FAYE; MARK RINGER,
Plaintiffs - Appellants,
v.
CITY OF BOULDER; JANE
S. BRAUTIGAM, in her
official capacity as City
Manager of the City of
Boulder; GREGORY TESTA,
in his official capacity as
Chief of Police of the City of
Boulder; and JOHN DOES 110,
Defendants - Appellees,
AARON BROCKETT, in his
official capacity as Mayor Pro
Tem of the City of Boulder;
CYNTHIA A. CARLISLE, in
her official capacity as
Boulder City Council
Member; JILL ADLER
GRANO, in her official

No. 18-1421

App-2
capacity as Boulder City
Council Member; and JOHN
DOES 1-10; SUZANNE
JONES, in her official
capacity of Mayor of the City
of Boulder; LISA MORZEL,
in her official capacity of
Boulder City Council
Member; MIRABAI KUK
NAGLE, in her official
capacity as Boulder City
Council Member; SAMUEL
P. WEAVER, in his official
capacity as Boulder City
Council Member; ROBERT
YATES, in his official
capacity as Boulder City
Council Member; MARY D.
YOUNG, in her official
capacity as Boulder City
Council Member,
Defendants.
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 18-cv-1211-MSK-MEH)
[Filed: April 10, 2020]

Cody J. Wisniewski, Mountain States Legal
Foundation (Zhonette M. Brown, Mountain States
Legal Foundation, with him on the briefs),
Lakewood, Colorado, for Plaintiffs- Appellants.

App-3
Robert Reeves Anderson, Arnold & Porter Kaye
Scholer, Denver, Colorado (Timothy R. MacDonald,
Evan M. Rothstein, and Patrick B. Hall, Arnold &
Porter Kaye Scholer, Denver, Colorado; and Thomas
A. Carr and Luis A. Toro, Boulder City Attorney’s
Office, Boulder, Colorado, with him on the brief), for
Defendants-Appellees.
Before HARTZ, SEYMOUR, and MATHESON,
Circuit Judges.
SEYMOUR, Circuit Judge.
Plaintiffs are citizens of the City of Boulder and
entities with various interests in the sale or
possession of firearms within the city. They filed suit
against the City of Boulder and several of its
officials, alleging that Boulder City Ordinances 8245
and 8259 violate the U.S. Constitution, the Colorado
State Constitution, and Colorado state statutes, Colo.
Rev. Stat. §§ 29-11.7-102 & 103. The district court

abstained and stayed the proceedings pending
resolution of the state law preemption question
in state court. Caldera v. City of Boulder, 341 F.
Supp. 3d 1241 (D. Colo. 2018). Plaintiffs appeal,
and we affirm.
I.

On May 15, 2018, the Boulder City Council
unanimously passed Ordinance 8245 (“the

App-4
ordinance”),1 which amended the Boulder Revised
Code to prohibit the sale or possession of “assault
weapons”2
and
largecapacity
ammunition
magazines within the City of Boulder. The ordinance
Subsequent to passing Ordinance 8245, the City of Boulder
enacted Ordinance 8259 on June 19, 2018, which amends and
clarifies some of the provisions of Ordinance 8245. The district
court found that Ordinance 8259 did not “fundamentally change
the thrust of the prior Ordinance” and plaintiffs do not appeal
that finding. Caldera v. City of Boulder, 341 F. Supp. 3d 1241,
1242 (D. Colo. 2018). All references to “the ordinance” are to
Ordinance 8245 with the 8259 changes included.
1

2
The ordinance provides the following definition for “assault
weapon”:
(a) All semi-automatic center-fire rifles that have the capacity
to accept a detachable magazine and that have any of the
following characteristics:
(1) A pistol grip or thumbhole stock.;
(2) A folding or telescoping stock; or
(3) Any protruding grip or other device to allow the
weapon to be stabilized with the non-trigger hand.
(b) All semi-automatic center-fire pistols that have any of the
following characteristics:
(1) Have the capacity to accept a magazine other than in
the pistol grip; or
(2) Have a secondary protruding grip or other device to
allow the weapon to be stabilized with the non-trigger
hand.
(c) All semi-automatic shotguns that have any of the following
characteristics:
(1) A pistol grip or thumbhole stock;
(2) Any feature capable of functioning as a protruding
grip that can be held by the non-trigger hand;
(3) A folding telescoping stock;
(4) A fixed magazine capacity in excess of 5 rounds; or
(5) The capacity to accept a detachable magazine.
(d) Any firearm which has been modified to be operable

App-5
also raises the legal age for possession of firearms
from eighteen to twenty-one. The City of Boulder is a
home-rule municipality under the Colorado
Constitution, which grants Boulder the authority to
pass ordinances in “local and municipal matters”
that supersede “any law of the state in conflict
therewith.” Colo. Const. art. XX, § 6. Boulder passed
the ordinance pursuant to its home-rule authority
under the Colorado Constitution.
Plaintiffs filed this lawsuit challenging the
ordinance under Colorado state law and the U.S.
Constitution. They contend the ordinance is
preempted by Colo. Rev. Stat. §§ 29-11.7-102 & 103.
Section 29-11.7-102 limits the information that local
governments may retain about guns and gun owners.
Section 29-11.7-103 provides that “[a] local
government may not enact an ordinance, regulation,
or other law that prohibits the sale, purchase, or
possession of a firearm that a person may lawfully
sell, purchase, or possess under state or federal law.”
Plaintiffs also contend the ordinance violates the
First, Second, Fifth, and Fourteen Amendments to
the U.S. Constitution, as well as provisions of the
Colorado Constitution.
Shortly after plaintiffs filed this action, other
individuals and entities filed suit in state court in
Boulder County challenging this same ordinance.
as an assault weapon as defined herein.
(e) Any part or combination of parts designed or intended to
convert a firearm into an assault weapon, including any
combination of parts from which an assault weapon may be
readily assembled if those parts are in the possession or under
the control of the same person. Aplt. App. at 45.

App-6
Chambers v. City of Boulder, No. 2018-CV-30581
(Colo. D. Ct., Boulder Cty. filed June 14, 2018)
(Complaint at 1). Because of the uncertain state law
issue in this case, the district court here decided to
abstain under the Supreme Court’s precedent in
Railroad Commission of Texas v. Pullman Co., 312
U.S. 496 (1941). The district court stayed federal
proceedings pending a determination by the Colorado
state court as to whether the ordinance is preempted
by Colorado statutes §§ 29-11.7-102 & 103. Plaintiffs
appeal the district court’s determination.
II.
Plaintiffs argue that the district court erred in
abstaining under Pullman. The Pullman doctrine is
a “narrow exception” to the federal courts’ general
duty to decide cases and “is used only in exceptional
circumstances.” Kan. Judicial Review v. Stout, 519
F.3d 1107, 1119 (10th Cir. 2008) (citation omitted).
The policy underlying Pullman abstention is that
federal courts should avoid “premature constitutional
adjudication,” Babbitt v. United Farm Workers Nat’l
Union, 442 U.S. 289, 306 (1979) (citation omitted),
and the risk of rendering advisory opinions, Moore v.
Sims, 442 U.S. 415, 428 (1979) (“[T]he Pullman
concern [is] that a federal court will be forced to
interpret state law without the benefit of state-court
consideration and . . . render[ ] the federal-court
decision advisory and the litigation underlying it
meaningless.”) (citation omitted). Pullman avoids
“federal-court error in deciding state-law questions
antecedent to federal constitutional issues,” by
allowing for parties to adjudicate disputes involving
“unsettled state-law issues” in state courts.
Arizonans for Official English v. Arizona, 520 U.S.

App-7
43, 76 (1997).
In reviewing the district court’s decision to
abstain under Pullman, we first “review de novo
whether the requirements for Pullman abstention
have been met.” Kan. Judicial Review, 519 F.3d at
1114–15 (citation omitted). This is so because “[t]he
question of the clarity of state law is essentially legal
in nature.” Vinyard v. King, 655 F.2d 1016, 1019
(10th Cir. 1981) (citation omitted).
If we determine that the requirements for
abstention under Pullman are met, we then review
for abuse of discretion the district court’s decision to
abstain. See Harman v. Forssenius, 380 U.S. 528, 534
(1965) (“In applying the doctrine of abstention, a
federal district court is vested with discretion to
decline to exercise or to postpone the exercise of its
jurisdiction in deference to state court resolution of
underlying issues of state law.”) (citation omitted);
see also Vinyard, 655 F.2d at 1018 (“[If] the
particular case falls within the ambit of Pullman . . ,
[the court] must then make a discretionary
determination . . . as to whether abstention is in fact
appropriate.”) (citation omitted). Abuse of discretion
occurs “only when [the district court] makes a clear
error of judgment, exceeds the bounds of permissible
choice, or when its decision is arbitrary, capricious or
whimsical, or results in a manifestly unreasonable
judgment.” Liberty Mut. Fire Ins. Co. v. Woolman,
913 F.3d 977, 990 (10th Cir. 2019) (internal
quotation marks and citation omitted). We apply
these principles to plaintiffs’ claims on appeal.

App-8
A.
Plaintiffs contend the requirements for Pullman
abstention are not satisfied. We have recognized
three requirements that must be met to justify
abstention under Pullman:
(1) an uncertain issue of state law underlies
the federal constitutional claim; (2) the state
issues are amenable to interpretation and
such an interpretation obviates the need for
or substantially narrows the scope of the
constitutional claim; and (3) an incorrect
decision of state law by the district court
would hinder important state law policies.
Lehman v. City of Louisville, 967 F.2d 1474, 1478
(10th Cir. 1992) (citation omitted).
A complex issue of state law underlies the
federal constitutional claims in this case. Both sides
agree that the Boulder City Ordinance conflicts with
Colorado statutes §§ 29-11.7-102 & 103. As the
district court recognized, however, the statutes “rub[]
up against Art. XX, Section 6 of the Colorado
constitution,” which grants municipalities regulatory
authority over the General Assembly in matters of
local and municipal concern (referred to as the “home
rule” provision). Caldera, 341 F. Supp. 3d at 1244. In
a home-rule jurisdiction where “a home rule
ordinance . . . and a state statute conflict with
respect to a local matter, the home rule provision
supersedes the conflicting state provision.” City &
Cty. of Denver v. State, 788 P.2d 764, 767 (Colo. 1990)
(citation omitted). On the other hand, municipal
ordinances that deal with matters of statewide
concern and conflict with state law are preempted,

App-9
unless otherwise authorized by the constitution or
state statute. Id. Finally, in “matters of mixed local
and state concern, a charter or ordinance provision of
a home rule municipality may coexist with a state
statute as long as there is no conflict, but in the
event of a conflict the state statute supersedes the
conflicting [ordinance] provision.” Id.
The determinative issue therefore is whether the
challenged provisions of the Boulder City Ordinance
regulate matters of purely local or statewide concern,
or a mix of both. That issue implicates state, not
federal law, and is uncertain under Colorado law.
The question, as far as we are aware, has been
addressed only one time by Colorado state courts, see
City & Cty. of Denver v. State, No. 03-CV-3809, 2004
WL 5212983 (Colo. D. Ct., Denver Cty. Nov. 5, 2004).
There, the City of Denver had in place several
ordinances restricting the sale and use of firearms in
Denver city limits. Id. at *1. The City sought a
declaratory judgment that the ordinances were not
preempted by recently passed state statutes that
“identif[ied] control of firearms as a state interest,” 3
or alternatively that the Colorado statutes were
unconstitutional under the home rule amendment to
the extent that they preempt local laws. Id. The
district court considered each provision individually
to determine whether the provision regulated
matters of “purely local, purely state or mixed
concern,” and concluded that several provisions
The statutes at issue in City and County of Denver were
also Colo. Rev. Stat. §§ 29-11.7-102 & 103.

3

App-10
related to matters of purely local concern. Id. at *2,
*15–17. The State appealed the decision to the
Colorado Supreme Court, which split evenly on the
issue of whether the ordinances were preempted,
thereby affirming the decision of the Denver District
Court.4 State v. City & Cty. of Denver, 139 P.3d 635,
636 (Colo. 2006) (3-3 decision, J. Eid not
participating).
Plaintiffs maintain that the first Pullman factor
is not satisfied because the Colorado district court
decision in City & Cty. of Denver provides certainty
in addressing the issue.5 They contend that “trial
court interpretations . . . constitute a ruling on a
question of state law that is binding on [the Court].”
City of Houston v. Hill, 482 U.S. 451, 470 (1987)
(quotation marks and citation omitted). In Hill, the
plaintiff filed a civil rights action after he was
arrested several times for violating a city ordinance
that proscribed “interrupt[ing] any policeman in the
execution of his duty” and he was subsequently
acquitted. Id. at 454–55. The district court held that
the ordinance had not been unconstitutionally
applied. When the Court of Appeals declined to
Colorado Appellate Rule 35(b) provides that “[w]hen the
supreme court acting en banc is equally divided in an opinion,
the judgment being appealed will stand affirmed.”

4

Plaintiffs also assert that the district court should not have
engaged in the Pullman analysis without a more thorough
factual record in order “to determine the extent of the issues in
the case and to frame which issues, if any, require abstention.”
Aplt. Rep. Br. at 34. We are not persuaded that Pullman
requires the district court to engage in the examination of state
law that it has determined to leave to the state courts. Further,
the factual record before the district court was sufficient to
establish which issues required abstention in this case and the
extent of those issues.

5

App-11
abstain and held en banc that the statute was
overbroad, Hill v. City of Houston, 789 F.2d 1103,
1113 (5th Cir. 1986), the city appealed. The Supreme
Court denied abstention under Pullman based upon
the fact that the Houston Municipal Courts had
applied the city ordinance on numerous occasions.
Hill, 482 U.S. at 469–70. The Court held that the
ordinance was overbroad. Id. at 467.
Unlike in Hill, however, the Colorado Supreme
Court previously had occasion to review the issue on
appeal here and split evenly in response. See City &
Cty. of Denver, 139 P.3d at 636. In these
circumstances, we agree with the district court that
“it is hard to conceive of a more potent way of
demonstrating” uncertainty under Pullman than
“the state’s highest court split[ting] evenly on a
question of law.” Caldera, 341 F. Supp. 3d at 1245.
The state law issue in this case is not only
uncertain but also potentially decisive. The second
Pullman factor presents “the pivotal question in
determining whether abstention is appropriate”: is
the statute “fairly subject to an interpretation which
will render unnecessary or substantially modify the
federal constitutional question.” Hill, 482 U.S. at 468
(quotation marks and citation omitted). The answer
here is clearly yes: if the state court were to conclude
that the Colorado statutes preempt the Boulder
ordinance, there would be no need for us to resolve
the federal constitutional questions. Plaintiffs do not
allege any impediment to bringing their preemption
claim in state court. Even if the state court does not
hold that each provision of the ordinance is
preempted by the statute, its potential determination
that some of the provisions are preempted would
substantially narrow the scope of the constitutional

App-12
analysis in federal court. Thus, the second Pullman
factor is satisfied in this case and weighs in favor of
abstention.
The third Pullman factor is also satisfied
because the case implicates state rights and a
decision by this court would risk intrusion into
important state functions. In making this
determination, we afford deference to the district
court’s assessment. As we recognized in Vinyard;
The appraisal of whether an erroneous
federal court determination of state law
would have a disruptive effect on state
policies is more discretionary in character
than the determination of the clarity of state
law, and greater deference will be generally
accorded to a district court’s appraisal if it is
adequately explained.
655 F.2d at 1020 (quotation marks and citation
omitted).
The Supreme Court has found the third Pullman
factor to be satisfied where “the dispute in its broad
reach involves a question as to whether a city has
trespassed on the domain of a State.” City of Chicago
v. Fieldcrest Dairies, 316 U.S. 168, 172 (1942). In
Fieldcrest Dairies, milk sellers sued after being
denied a permit to sell milk in paper cartons due to a
city ordinance which required that milk products
sold in quantities less than one gallon be “delivered
in standard milk bottles.” Id. at 169. Subsequently,
Illinois passed the Illinois Milk Pasteurization Plant
Law, which regulated single service and paper milk
containers and “reserve[d] to cities, villages and
incorporated towns the power to regulate the
distribution . . . of pasteurized milk” so long as the

App-13
regulation did not violate the act. Id. at 170 (internal
quotation marks omitted). The Seventh Circuit held
that the ordinance’s prohibition of single-service
containers was void as it violated the public policy of
the state expressed in the statute and suggested in
dictum that the ordinance was unconstitutional.
Fieldcrest Dairies v. City of Chicago, 122 F.2d 132,
139 (7th Cir. 1941). The Supreme Court reversed on
the ground that Pullman abstention was required.
Fieldcrest Dairies, 316 U.S. at 171. The Court
reasoned that “Illinois has the final say as to the
meaning of the ordinance in question” as well as “the
final word on the alleged conflict between the
ordinance and the state Act.” Id. at 171–72. The
Court determined that the constitutional issue raised
“may not survive the litigation in the state courts”
and explained that the wisdom in abstention is that
it “avoid[s] the waste of a tentative decision and any
needless friction with state policies.” Id. at 172, 173
(quotation marks and citation omitted). As in
Fieldcrest Dairies, there is a concern in the present
case as to “the appropriate relationship between
federal and state authorities functioning as a
harmonious whole.” Id. at 172–73. Indeed, the
district court rightly determined that federalism
interests are salient in this case. Caldera, 341 F.
Supp. 3d at 1246.
The deciding court in the present case must
balance two competing state policy choices. First, the
state legislature has expressed a strong interest in
uniform firearm regulation. See Colo. Rev. Stat. § 2911.7-101 (explaining that “[i]nconsistency among
local governments of laws regulating the possession
and ownership of firearms results in persons being
treated differently under the law solely on the basis

App-14
of where they reside”). On the other hand, the
Colorado Constitution grants regulatory power to
municipalities under the home rule provision. See
Colo. Const. art. XX., § 6. We agree with the district
court that an “incorrect prediction” as to “the correct
interpretation of C.R.S. § 29.11.7-103 and Art. XX,
Section 6 of the Colorado constitution will necessarily
disrupt an important state interest” in decisively
balancing these state policies. Caldera, 341 F. Supp.
3d at 1246. Thus, all three Pullman factors are
satisfied and weigh in favor of abstention in this
case.
B.
Because we have determined that all Pullman
factors are present, we now review the district court’s
abstention determination for abuse of discretion. See
Harman, 380 U.S. at 534; see also Vinyard, 655 F. 2d
at 1018. The decision whether to abstain is a
“discretionary exercise of a court’s equity powers.”
Baggett v. Bullitt, 377 U.S. 360, 375 (1964). The
consideration of “the nature of the constitutional
deprivation alleged and the probable consequences of
abstaining” are part of the assessment in
determining whether to abstain under Pullman.
Harman, 380 U.S. at 537. In deciding whether to
abstain, a court considers “the delays inherent in the
abstention process and the danger that valuable
federal rights might be lost in the absence of
expeditious adjudication in the federal court.” Harris
Cty. Comm’rs Court v. Moore, 420 U.S. 77, 83 (1975).
Plaintiffs argue abstention in this case is
improper because it chills the exercise of their
fundamental constitutional right to keep and bear

App-15
arms.6 But the Supreme Court has not recognized a
categorical rule against abstention in cases involving
constitutional rights. See Moore v. Sims, 442 U.S.
415, 434–35 (1979) (ordering abstention in a childwelfare case involving due process rights); see also
Reetz v. Bonzannich, 397 U.S. 82 (1970) (requiring
abstention
despite
Fourteenth
Amendment
challenge). Moreover, consideration of the nature of
the right and the chilling effect of abstention is a
secondary assessment to determining whether the
Pullman requirements are met. See Harman, 380
U.S. at 535–37 (assessing the nature of the right and
the consequences of abstaining only after
determining that the statute was “clear and
unambiguous” and therefore did not meet the
requirements of Pullman).7 Plaintiffs also argue that
abstention causes a lengthy delay before the
constitutional issues are adjudicated and, as a result,
they will be deprived of their Second Amendment
rights for an extended period. We have recognized
that certification is preferable to abstention as a
means of avoiding delay. Kan. Judicial Review, 519
For the first time at oral argument, plaintiffs also argued
that abstention was inappropriate because they are seeking
damages under 42 U.S.C. § 1983. Because “issues may not be
raised for the first time at oral argument,” we do not consider
this argument. Dodds v. Richardson, 614 F.3d 1185, 1208 (10th
Cir. 2010).

6

Notably, in each Supreme Court case cited by plaintiffs to
support their chilling argument, the Court determined that at
least one of the Pullman factors was not satisfied. See Hill, 482
U.S. at 471 (concluding that the “ordinance is neither
ambiguous nor obviously susceptible of a limiting
7

App-16
F.3d at 1119. The district court provided the parties
with the option to certify the state law questions to
the Colorado Supreme Court, but the parties were
unable to reach an agreement to pursue that path.
Caldera, 341 F. Supp. 3d at 1248. Moreover, the
Supreme Court has “regularly ordered abstention”
when a case is “pending in state court that will likely
resolve the state-law questions underlying the
federal claim.” Moore, 420 U.S at 83. Because there
is a case involving substantially identical issues8
pending in state court, the concern as to delay is
construction”); Zwickler v. Koota, 389 U.S. 241, 249 (1967)
(“[W]e have here no question of a construction of [the statute]
that would avoid or modify the constitutional question.”)
(quotation marks omitted); Dombrowski v. Pfister, 380 U.S. 479,
490–91 (1965) because “the conduct charged in the indictments
is not within the reach of an acceptable limiting construction” of
the statute, and statutes were invoked in bad faith to
discourage civil rights activities); Harman, 380 U.S. at 536
(stating that no “provision in the legislation . . . leaves
reasonable room for a construction by the [state] courts which
might avoid in whole or in part the necessity for federal
constitutional adjudication, or at least materially change the
nature of the problem”) (citation omitted); and Baggett, 377 U.S.
at 375–78 (denying abstention on the grounds that there was
not an uncertain issue of state law that “turn[s] upon a choice
between one or several alternative meanings of a state statute”
but rather “an indefinite number” of interpretations and
therefore, a construction of the statute by the state court would
not avoid or alter the constitutional issue).
The Chambers lawsuit raises only state law challenges to
the ordinance and does not include the federal constitutional
challenges included in this case.
8

App-17
mitigated. See Chambers v. City of Boulder, No.
2018-CV-30581 (Colo. D. Ct, Boulder Cty. filed June
14, 2018).
Accordingly, we hold that the district court
properly abstained as “appropriate regard for
therightful independence of state governments
reemphasize[s] that it is a wise and permissible
policy for the federal chancellor to stay his hand in
absence of an authoritative and controlling
determination by the state tribunals.” Fieldcrest
Dairies, 316 U.S. at 172 (quotation marks and
citation omitted).
We AFFIRM.

App-18
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

JON C. CALDARA, et al.,
Plaintiffs - Appellants,

No. 18-1421

v.

(D.C. No. 1:18-CV1211-MSK-MEH)

CITY OF BOULDER, et al.,

(D. Colo.)

Defendants - Appellees,
AARON BROCKETT, in his
official capacity as Mayor Pro
Tem of the City of Boulder, et
al.,
Defendants.

ORDER
[Filed: June 11, 2020]
Before HARTZ, SEYMOUR, and MATHESON,
Circuit Judges.

App-19
Appellants’ petition for rehearing is denied.
The

petition

for

rehearing

en

banc

was

transmitted to all of the judges of the court who are
in regular active service. As no member of the panel
and no judge in regular active service on the court
requested that the court be polled, that petition is
also denied.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

App-20
Appendix C
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Marcia S. Krieger
Civil Action No. 18-cv-01211-MSK-NYW
JON C. CALDERA,
BOULDER RIFLE CLUB, INC., GENERAL
COMMERCE, LLC, TYLER FAYE, and
MARK RINGER,
Plaintiffs,
v.
CITY OF BOULDER, and
John Does 1-10,
Defendants.
OPINION AND ORDER OF ABSTENTION
PURSUANT TO PULLMAN
[Filed: Sept. 17, 2018]
THIS MATTER comes before the Court
pursuant to the Court’s discussion with the parties
during a hearing on August 15, 2018 (# 46), and the
parties’ supplemental briefing on the issue of
Pullman abstention (# 48, 49).

App-21
FACTS
For purposes of this Order, the pertinent facts of
this case are straightforward and undisputed. On
May 15, 2018, the City of Boulder adopted Ordinance
8245. That Ordinance amended the Boulder Revised
Code to prohibit, within the City of Boulder, the sale
or possession of “assault weapons” (defined generally
as semi-automatic rifles, pistols, and shotguns
having certain specific characteristics) and largecapacity ammunition magazines (defined generally
as magazines with a capacity of more than 10
rounds, 15 for pistols), among other things. The
Ordinance provided that individuals in possession of
such weapons or magazines as of the passage of the
Ordinance could choose to retain those items by
providing certain information about the items to the
Boulder
Police
Department,
undergoing
a
background check, and obtaining a “certificate” to be
kept with the weapon or magazine.1
The Plaintiffs – citizens of the City of Boulder
and entities with various interests in the sale or
possession of weapons within Boulder – commenced
this action challenging the Ordinances. Their
Amended Complaint (# 41) asserts a total of 39
claims, although the bulk of those claims are a core
group of seven distinct claims, asserted by each of
the five Plaintiffs: (i) a claim that the Ordinances
violate the Ordinances violate the Second

On June 18, 2019, the City passed Ordinance 8259, which
amended Ordinance 8245 in certain respects, but which did not
fundamentally change the thrust of the prior Ordinance.
1

App-22
Amendment to the United States Constitution; (ii) a
claim that Ordinances violate the Due Process
Clause of the Constitution (apparently a substantive
due process claim, as it contends that the Ordinance
lacks “any legitimate government objective”); (iii) a
claim that the Ordinances violate the Takings Clause
of the 5th Amendment to the U.S. Constitution, in
that the Ordinances “force [the Plaintiffs] to
surrender [their] lawfully acquired and lawfully
owned property . . . without any government
compensation”; (iv) a claim that the Ordinances
violate the First Amendment to the Constitution, in
that they compel the Plaintiffs “to speak to the
Boulder Police Department and provide information
about banned, but currently exempted, firearms”; (v)
a claim asserting a violation of the Privileges and
Immunities Clause of the 14th Amendment to the
Constitution, in that the Ordinance deprives them of
the rights secured by the Second Amendment; (vi) a
claim that the Ordinances violate Article 2, § 13 of
the Colorado Constitution, which guarantees citizens
the right to keep and bear arms; and (vii) a claim
that the Ordinances violate Article 2, § 3 of the
Colorado Constitution, which guarantees citizens the
right “of enjoying and defending their lives and
liberties,” in that the Ordinance deprives them of
their right of self-defense. In addition, to these core
claims (and certain additional claims asserted by
certain specific Plaintiffs), two claims by unspecified
Plaintiffs seek a declaratory judgment that the
Ordinance violates home rule provisions found in

App-23
C.R.S. § 29-11.7-102 and -103.2
The Plaintiffs sought a preliminary injunction (#
4) against enforcement of the Ordinance, and on
August 15, 2018, this Court conducted a nonevidentiary hearing to address that request. Among
the issues raised by the Court at that hearing was
the question of whether it was appropriate for the
Court to abstain, on Pullman grounds, from hearing
the constitutional challenges to the Ordinances until
the Plaintiffs’ claims under C.R.S. § 29-11.7-103 were
resolved. The Court invited the parties to brief the
issue of the appropriateness of Pullman abstention,
and the parties did so (# 48, 49).
ANALYSIS
The doctrine of abstention that has become
known as the Pullman abstention has its origins in
the U.S. Supreme Court’s decision in Railroad
Comm’n. of Texas v. Pullman Co., 312 U.S. 496
(1941). There, a Texas regulation prohibited
passenger railroads from operating trains without a
conductor, a regulation that implicated the railroads’
ability to employ black persons as sleeper car
attendants. The railroads and certain black
employees sued the state railroad commission,
arguing that the regulation violated both Texas state
C.R.S. § 29-11.7-102(1) prohibits local governments from
“maintaining a list or other form of record or database of”
firearms ownership or transfers.

2

C.R.S. § 29-11.7-103 provides that local government “may
not enact an ordinance . . . that prohibits the sale, purchase, or
possession of a firearm that a person may lawfully sell,
purchase, or possess understate or federal law.”

App-24
law and the Equal Protection and Due Process
clauses of the U.S. Constitution. A trial court
enjoined enforcement of the regulation, and the state
appealed to the U.S. Supreme Court. The Court
conceded that the plaintiffs “tendered a substantial
constitutional issue,” but noted that it “touches a
sensitive area of social policy upon which the federal
courts ought not to enter unless no alternative to its
adjudication is open.” 312 U.S. at 498. It observed
that “[s]uch constitutional adjudication plainly can
be avoided if a definitive ruling on the state issue
would terminate the controversy,” and explained
that, in addressing the question of whether the
regulation violated Texas state law, the federal
courts could offer only “a forecast rather than a
determination” of how state law might apply. The
last word, it explained, “belongs neither to us nor the
district court, but to the supreme court of Texas.”
The Court observed that “[t]he reign of law is hardly
promoted if an unnecessary ruling of a federal court
is thus supplanted by a controlling decision of a state
court,” and suggested that federal courts should
endeavor to “avoid the waste of a tentative decision
as well as the friction of a premature constitutional
adjudication.” Noting that the state courts provided
“easy and ample means for determining” the state
law issue, the Court declared that the federal court
“should exercise its wise discretion by staying its
hands” as to the constitutional question and
remanded the action back to the district court to
“retain the bill” – essentially stay the case – “pending
a determination of proceedings, to be brought with
reasonable promptness, in the state court.” Id. at
498-502.

App-25
Pullman abstention is founded on the notion that
federal courts should avoid “premature constitutional
adjudication.” Babbit v. United Farm Workers Natl.
Union, 442 U.S. 289, 306 (1979). The danger is that a
federal court may render “a constitutional
adjudication [ ] predicated on a reading of the [state]
statute that is not binding on state courts and may
be discredited at any time, thus essentially rendering
the federal court decision advisory and the litigation
underlying it meaningless.” Moore v. Sims, 442 U.S.
415, 428 (1979). Thus, Pullman abstention is
appropriate when three elements are present: (i) an
uncertain issue of state law underlies the federal
constitutional claim; (ii) the state issues are
amenable
to
interpretation
and
such
an
interpretation would obviate the need for or
substantially narrow the scope of the constitutional
claim; and (iii) an incorrect decision of state law by
the federal court would hinder important state law
policies. Kansas Judicial Review v. Stout, 519 F.3d
1107, 1118-19 (10th Cir. 2008).
A. Are the predicate elements for abstention
are present?
Turning first to the existence of “an uncertain
issue of state law,” the issue is framed by the
Plaintiffs’ Thirty Ninth Cause of Action. It seeks a
declaration that the Boulder Ordinances violate a
Colorado State Statute - C.R.S. § 29-11.7-103. Such
statute provides that “a local government may not
enact an ordinance. . . that prohibits the sale,
purchase, or possession of a firearm that a person
may lawfully sell, purchase, or possess under state or

App-26
federal law.”3 It would appear that the Ordinances
violate the statute because at least some firearms
covered by the Ordinances can be legally-possessed
under Colorado and/or federal law.
But C.R.S. § 29-11.7-103 does not exist in a
vacuum. It rubs up against Art. XX, Section 6 of the
Colorado constitution, which provides generally that
municipalities are given the authority to pass laws
affecting “local and municipal matters” which
“supersede . . . any law of the state in conflict
therewith” (sometimes referred to as a “home rule”
provision). If the regulation of firearms is a “local
and municipal matter,” then Art. XX, Section 6
would require that C.R.S. § 29-11.7-103 yield to that
local interest. Thus, the question of whether the
Ordinances are barred by C.R.S. § 29-11.7-103, or
whether that statute yields to Boulder’s home rule
authority turns significantly on the question of
whether the regulation of firearms within the city is
a “local and municipal matter” or a matter of
statewide concern.
The answer to that question is decidedly
uncertain and certainly an issue of state, not federal
law. As far as this Court is aware, the state courts
have squarely considered that question only once. In
City and County of Denver v. State of Colorado, 2004
WL 5212983 (Colo. Dist. Ct., Denver County Nov. 5,
The Plaintiffs argue that, because C.R.S. § 29-11.7-103
encompasses weapons legally possessed under “federal law,”
“the underlying state law explicitly implicates a question of
federal law” and thus falls outside of Pullman consideration
entirely. For the reasons set forth herein, that argument is
without merit.
3

App-27
2004), the City of Denver had passed several
municipal ordinances governing the sale or use of
firearm within the city limits. Citing the recentlyenacted C.R.S. § 29-11.7-103 (sometimes referred to
by the courts as “Senate Bill 25”), the State sued,
seeking a declaration that Denver’s ordinances were
preempted; in response, Denver argued that the
ordinances addressed local matters within the scope
of Denver’s home rule rights. Ultimately, the Denver
District Court found that several of Denver’s
ordinances (including a prohibition on the sale of
“assault weapons”) were properly considered matters
of uniquely local concern, trumping C.R.S. § 29-11.7103’s prohibition. The state appealed that ruling to
the Colorado Supreme Court, but the Supreme Court
split evenly on the issue, with three justices voting to
affirm the Denver District Court, three justices
voting to reverse, and one justice not participating.
State of Colorado v. City and County of Denver, 139
P.3d 635 (Colo. 2006). By operation of Colorado
Appellate Rule 35(e), the even split by the Supreme
Court resulted in the affirmance of the Denver
District Court’s ruling.
There can be little argument that, where the
state’s highest court splits evenly on a question of
law, that legal question is “uncertain”; indeed, it is
hard to conceive of a more potent way of
demonstrating such uncertainty. The Plaintiffs here
argue that the application of C.R.S. § 29-11.7-103 is
not uncertain because “the plain language of” that
statute “is clear and unambiguous,” as are the
principles for determining whether matters fall
within the Colorado constitution’s “home rule”
provisions, such this Court “need only look to the
state statutes in question . . . and apply them to the

App-28
case at hand.” But City and County of Denver clearly
belies the Plaintiffs’ contention that the state law
determinations to be made here are straightforward
and obvious. Surely, they were not straightforward
and obvious to the Colorado Supreme Court in 2006,
and although the Colorado state courts have spoken
generally on the subject of home rule in the interim,
the Plaintiffs point to no subsequent decisions that
have revisited – much less conclusively resolved -the particular question of whether municipal
firearms regulations constitute matters of local or
statewide concern. Thus, the first element of
Pullman abstention – an uncertain question of state
law – is present here.
The second element considers whether the state
issue is ripe for review and whether its resolution
would obviate the need for a determination of federal
constitutionality is also satisfied. The state law issue
is ripe, as the Plaintiffs have asserted it as one of
their causes of action here. There is no apparent
impediment to the Plaintiffs litigating the
applicability of C.R.S. § 29-11.7- 103 to the
Ordinances herein in the state courts, or at least the
Plaintiffs have not identified any such impediment
(except perhaps time, which the Court addresses
below). Likewise, it is clear that if the state courts
were to conclude that the Ordinances are preempted
by C.R.S. § 29-11.7- 103, such determination would
nullify the Ordinances and eliminate entirely the
need for a determination of whether the Ordinances
offend the U.S. Constitution. Thus, the second
element of Pullman abstention is present as well.
Finally, the third element examines whether an
incorrect prediction of state law by this Court would
hinder important state policies. Both sides of the

App-29
state law issue implicate important state rights: on
the one hand, the state’s interest in the uniform
enforcement of firearms laws is a matter of
substantial state interest, as reflected by the
legislative declaration found in C.R.S. § 29-11.7-101.
On the other hand, the principles of municipal home
rule enshrined in the Colorado constitution reflect
important state interests as well, given the state’s
intention to confer upon municipalities the same
powers possessed by the state legislature itself, at
least as to matters of local concern. City and County
of Denver v. State of Colorado, 788 P.2d 764, 767
(Colo. 1990). Thus, any incorrect prediction by this
Court about the correct interpretation of C.R.S. § 2911.7-103 and Art. XX, Section 6 of the Colorado
constitution will necessarily disrupt an important
state interest.
Accordingly, the Court finds that all the
predicate elements necessary for Pullman abstention
are present here.4

Occasionally, the Supreme Court makes a passing
reference to abstention only being appropriate in “special
circumstances.” Baggett v. Bullitt, 377 U.S. 360, 376 (1964). At
least one such circumstance is “the susceptibility of a state
statute to a construction by the state courts that would avoid or
modify the constitutional question.” Zwickler v. Koota, 389 U.S.
241, 248- 49 (1967). To the extent that “special circumstances”
are an additional element that must be present for Pullman
abstention to be appropriate, for the reasons set forth above,
this Court finds that this special circumstance is present here.

4

App-30
B. Should this Court abstain from hearing this
matter?
Having determined that all the predicate
elements for Pullman abstention are present, the
only remaining question is whether the Court should
abstain. Abstention is a discretionary exercise of the
Court’s equity powers, to be applied only in special
circumstances. Baggett v. Bullitt, 377 U.S. 360, 375
(1964). The Plaintiffs offer two arguments as to why
abstention would be inappropriate: (i) because the
Ordinances implicate fundamental rights under the
U.S. Constitution; and (ii) because abstention would
needlessly delay consideration of the substantial
federal questions raised by the Plaintiffs’ claims.
1.

Nature of the right at issue

The Supreme Court has stated that “abstention
is inappropriate for cases where statutes are
justifiably attacked on their face as abridging free
expression.”5 City of Houston v. Hill, 482 U.S. 451,
467 (1987), quoting Dombrowksi v. Pfister, 380 U.S.

5
But see Brockett v. Spokane Arcades, Inc., 472 U.S. 491,
509-10 (1985) (O’Connor, J., concurring) (“the Court of Appeals
asserted that Pullman abstention should almost never apply
where a state statute is challenged on First Amendment
grounds because the constitutional guarantee of free expression
is, quite properly, always an area of particular federal concern.
This Court has never endorsed such a proposition. On the
contrary, even in cases involving First Amendment challenges
to a state statute, abstention may be required to avoid
unnecessary friction in federal-state relations, interference with
important state functions, tentative decisions on questions of
state law, and premature constitutional adjudication.”)
(internal quotes and citations omitted).

App-31
479, 489 (1965). The Plaintiffs assert that Second
Amendment rights should enjoy the same protection
as First Amendment free expression rights, and thus
this Court should categorically refuse to abstain in
this case.
Putting aside the difficulty in attempting to
compare and contrast the relative importance of
constitutional rights and the absence of any cited
legal authority for the proposition advanced by the
Plaintiffs, this Court observes, as does Justice
Powell’s concurring opinion in Hill, 482 U.S. at 476
n. 4, that the reasons why free expression cases are
particularly ill-suited for abstention has less to do
with their categorical label and more to do with the
interplay of federal and state law interests in such
cases. Each of the cases that the Plaintiffs here cite
in support of their argument, including Zwickler v.
Koota, 389 U.S. 241 (1967), Dombrowski, and others
such as Hill and Baggett v. Bullitt, 377 U.S. 360
(1964), involve individuals challenging state statutes
restricting free expression as being vague or
overbroad in violation of the First Amendment. In
none of these cases did the Supreme Court simply
declare that “because free expression rights are
implicated, abstention is inappropriate.” Rather, a
close reading of all those cases reveals that common
reasons why the Supreme Court found Pullman
abstention to be inappropriate. In these cases,
(particularly with regard to vagueness challenges),
the Court found that was no likelihood of a single,
conclusive determination of state law that would
eliminate the need for a federal constitutional
analysis – that the state courts would only be able to
render a string of sequential rulings in piecemeal
fashion that might resolve the constitutional

App-32
question if viewed in aggregation. See e.g. Zwickler,
389 U.S. at 397 (“appellee concedes that state court
construction
cannot
narrow
its
allegedly
indiscriminate cast and render unnecessary a
decision of appellant's constitutional challenge”);
Baggett, 377 U.S. at 378 (“It is fictional to believe
that anything less than extensive adjudications,
under the impact of a variety of factual situations,
would bring the oath within the bounds of
permissible constitutional certainty”). The Court also
found in some cases that there was no meaningful
state law question presented. Dombrowski, 380 U.S.
at 490 (law enforcement “invoked. . . criminal process
[against the appellant] without any hope of ultimate
success [ ] only to discourage appellant’s civil rights
activities,” and in such circumstances, “the
interpretation ultimately put on the statutes by the
state courts is irrelevant”); Hill, 482 U.S. at 471
(“here, there is no uncertain question of state law
whose resolution might affect the pending federal
claim”).
Neither of these situations is present here. The
question of whether the Ordinances regulate matters
of local concern (such that they are a permissible
exercise of Boulder’s home rule rights), or whether
they regulate matters of general statewide concern
(such that they are impermissible under C.R.S. § 2911.7-103), is concrete, ripe, capable of conclusive
resolution in a single state court lawsuit, and, if
resolved against Boulder, will entirely dispositive of
the claims herein without requiring any adjudication
of the federal constitutional issues. Thus, the factors
that sometimes lead the Supreme Court to assert
that free expression cases generally are not suitable
for Pullman abstention are not present here.

App-33
2.

Delay

Of course, the crux of the Plaintiffs’ argument
that abstention would burden their fundamental
rights is based on the assumption that resolving the
state law issue in state court will interpose a lengthy
delay before this Court might thereafter reach the
federal constitutional issues, and that throughout
that time, the Plaintiffs will suffer an ongoing
intrusion into their Second Amendment rights. The
Court understands and appreciates this argument,
but finds it unavailing. The notion that individuals
will continue to suffer an ongoing alleged deprivation
of constitutional rights is, unfortunate as it may be,
baked into the concept of abstention. The Supreme
Court’s rulings make clear that, as between the risk
of individual constitutional deprivations and the risk
of premature constitutional adjudication, the Court
should defer to the latter over the former.
Nevertheless, the Supreme Court is troubled by
that problem and has recently offered at least one
possible approach in mitigation. In Expressions Hair
Design v. Schniderman, 137 S.Ct. 1144, 1156 (2017),
it explained that “abstention is a blunt instrument”
that “sends the plaintiff to state court” and “entails a
full round of litigation in the state court system
before any resumption of proceedings in federal
court.” Expressions offered, as an alternative, the
possibility that the federal court could certify the
state law question directly to the state’s supreme
court, “reducing the delay, cutting the cost, and
increasing the assurance of gaining an authoritative
response.” Id. Colorado permits this Court to certify
a question directly to the Supreme Court if: (i) the
question of state law would be determinative of the
case, and (ii) it appears that there is no controlling

App-34
precedent from the Colorado Supreme Court on the
issue. Colo. App. R. 21.1(a). Both criteria are met
here, and, as the Court informed the parties at the
hearing in this matter, it would offer to make such a
certification, subject to the parties stipulating to all
the facts pertinent to the issue. Colo. App. R.
21.1(c)(2).
For whatever reasons, the parties were unable to
come to an agreement regarding certification of the
state law issue to the Colorado Supreme Court. That
failure to agree, although unfortunate, is not a basis
to otherwise alter the Court’s conclusion that
abstention is warranted here.
CONCLUSION
For the foregoing reasons, the Court finds that it
is appropriate to exercise Pullman abstention in this
action, deferring the consideration of the Plaintiffs’
federal constitutional claims until the state court can
conclusively resolve the question of whether the
Ordinances are preempted by C.R.S. § 29-11.7-103.
The Court accepts the Plaintiffs’ suggestion that a
stay of this action, rather than dismissal, is an
appropriate way to effectuate the abstention, and the
Court therefore stays this action in its entirety.
However, because of the unknown time frame in
which the state court can be expected to finally
resolve the question, it is impractical to leave this
case open indefinitely. Accordingly, the Clerk of the
Court shall administratively close this case, subject
to any party moving to reopen it upon a showing that
the state courts have fully resolved the state law
issue herein.

App-35
Dated this 17th day of September, 2018.
BY THE COURT:
/s/ Marcia S. Krieger
Marcia S. Krieger
Chief United States District Judge

App-36
IN THE UNITED STATES DISTRICT COURT
FOR THE
DISTRICT OF COLORADO
CHIEF JUDGE MARCIA S. KRIEGER
Courtroom Deputy: Patricia Glover
Court Reporter: Terri Lindblom
Date: August 15, 2018
Civil Action No. 18-cv-01211-MSK-MEH
Parties:

Counsel Appearing:

JON C. CALDERA,
BOULDER RIFLE CLUB,
INC., GENERAL
COMMERCE, LLC, TYLER
FAYE, and MARK RINGER,

Sean Smith
Cody Wisniewski

Plaintiffs,
v.
CITY OF BOULDER,
JANE S. BRAUTIGAM,
GREGORY TESTA,
SUZANNE JONES,
AARON BROCKETT,
CYNTHIA A. CARLISLE,
LISA MORZEL, MIRABAI
KUK NAGLE, SAMUEL P.
WEAVER,
Defendants.

Evan Rothstein
Patrick Hall
Timothy Macdonald
Luis Toro

App-37

COURTROOM MINUTES
HEARING: Law and Motion
10:01 a.m. Court in session.
The Court addresses the matters set forth in its
Order (Doc. #37) and other issues. Statements from
counsel Wisniewski and Macdonald on the issues at
hand.
ORDER:
Plaintiff’s will file a supplemental
response to the Motion to Dismiss (Doc. #35)
by August 29, 2018.
The Court addresses how to proceed with the case.
Argument.
ORDER:
The parties will brief the issue as to
whether the Pullman abstention should be applied in
this case by August 22, 2018. If the parties decide
during this time period they want to certify the
question to the Colorado Supreme Court on the fast
track, it must be done by agreement and stipulate to
all relevant facts that pertain to the home rule
challenge. The parties may respond with seven days
(August 22, 2018) that they have entered into that
agreement, and then a stipulation as to all relevant
facts and a statement as to the question to be
presented to the Colorado Supreme Court should be
filed seven days thereafter, by August 29, 2018.

App-38
ORDER:
All claims against Boulder City Council
members are dismissed as duplicative of the claim
brought against the City of Boulder. The caption will
read plaintiffs v The City of Boulder, Jane
Brautigam, Gregory Testa and John Does 1 through
10. All of the remaining individuals will be deleted
from the caption.
10:55 a.m. Court in recess.
Total Time: 54 minutes.
Hearing concluded.

App-39
Appendix D
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. CONST. Amend. II
A well regulated Militia, being necessary to the
security of a free State, the right of the people to
keep and bear Arms, shall not be infringed.
U.S. CONST. Amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless
on a
presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the
militia, when in actual service in time of war or
public danger; nor shall any person be subject for the
same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
U.S. CONST. Amend. XIV
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or

1

App-40
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
C.R.S. § 18-12-301
18-12-301. Definitions
As used in this part 3, unless the context otherwise
requires:
(1) "Bureau" means the Colorado bureau of
investigation created and existing pursuant to
section 24-33.5-401, C.R.S.
(2) (a) "Large-capacity magazine" means:
(I) A fixed or detachable magazine, box,
drum, feed strip, or similar device capable of
accepting, or that is designed to be readily
converted to accept, more than fifteen rounds
of ammunition;
(II) A fixed, tubular shotgun magazine that
holds more than twenty-eight inches of
shotgun shells, including any extension
device that is attached to the magazine and
holds additional shotgun shells; or
(III) A nontubular, detachable magazine,
box, drum, feed strip, or similar device that
is capable of accepting more than eight
shotgun shells when combined with a fixed
magazine.
(b) "Large-capacity magazine" does not mean:
(I) A feeding device that has been
permanently altered so that it cannot
accommodate more than fifteen rounds of

2

App-41
ammunition;
(II) An attached tubular device designed to
accept, and capable of operating only with,
.22 caliber rimfire ammunition; or
(III) A tubular magazine that is contained in
a lever-action firearm.
C.R.S. § 29-11.7-101
(1)

The general assembly hereby finds that:
(a) Section 3 of article II of the state
constitution, the article referred to as the state
bill of rights, declares that all persons have
certain inalienable rights, which include the
right to defend their lives and liberties;
(b) Section 13 of article II of the state
constitution protects the fundamental right of a
person to keep and bear arms and implements
section 3 of article II of the state constitution;
(c) The general assembly recognizes a duty to
protect and defend the fundamental civil rights
set forth in paragraphs (a) and (b) of this
subsection (1);
(d) There exists a widespread inconsistency
among jurisdictions within the state with regard
to firearms regulations;
(e) This inconsistency among local government
laws regulating lawful firearm possession and
ownership has extraterritorial impact on state
citizens and the general public by subjecting
them to criminal and civil penalties in some
jurisdictions for conduct wholly lawful in other
jurisdictions;

3

App-42
(f) Inconsistency among local governments of
laws regulating the possession and ownership of
firearms results in persons being treated
differently under the law solely on the basis of
where they reside, and a person's residence in a
particular county or city or city and county is
not a rational classification when it is the basis
for denial of equal treatment under the law;
(g) This inconsistency places citizens in the
position of not knowing when they may be
violating the local laws and therefore being
unable to avoid violating the law and becoming
subject to criminal and other penalties.
(2) Based on the findings specified in subsection (1)
of this section, the general assembly concludes that:
(a) The regulation of firearms is a matter of
statewide concern;
(b) It is necessary to provide statewide laws
concerning the possession and ownership of a
firearm to ensure that law-abiding persons are
not unfairly placed in the position of
unknowingly committing crimes involving
firearms.
C.R.S. § 29-11.7-102
(1) A local government, including a law enforcement
agency, shall not maintain a list or other form of
record or database of:
(a) Persons who purchase or exchange firearms
or who leave firearms for repair or sale on
consignment;
(b) Persons who transfer firearms, unless the

4

App-43
persons are federally licensed firearms dealers;
(c) The descriptions, including serial numbers,
of firearms purchased, transferred, exchanged, or
left for repair or sale on consignment.
C.R.S. § 29-11.7-103
A local government may not enact an ordinance,
regulation, or other law that prohibits the sale,
purchase, or possession of a firearm that a person
may lawfully sell, purchase, or possess under state or
federal law. Any such ordinance, regulation, or other
law enacted by a local government prior to March 18,
2003, is void and unenforceable.

5

App-44
Appendix E
ORDINANCE 8245
AN ORDINANCE AMENDING CHAPTER 5,
"GENERAL OFFENSES, "B.R.C.1981, TO BAN
THE SALE AND POSSESSION OF ASSAULT
WEAPONS, LARGE-CAPACITY MAGAZINES
AND MULTI-BURST TRIGGER ACTIVATORS,
AND SETTING FORTH RELATED DETAILS.
THE CITY COUNCIL OF THE CITY OF
BOULDER,

COLORADO,

FINDS

AND

RECITES THE FOLLOWING:
A. The City of Boulder is an urban, densely
populated city, with a population density similar
to that of Denver, Colorado. With a population
of 682,545 in 155 square miles, Denver has a
density of 4,213 residents per square mile.
Boulder's population of 108,707 resides in 25.8
square miles with a population density of 4,031
residents per square mile.
B. There has been a significant increase in
mass shootings over the last two decades. Mass
shootings occur most often at in public places
and at schools and involve assault weapons.
C. Boulder is home to the main campus of
the University of Colorado, with an enrollment
of 33,246 students and the campus of Naropa
University, with 932 students enrolled. In
addition, Boulder is home to Boulder Valley
School District elementary, middle and high
schools, with 14,357 students enrolled.
In

App-45
addition, the city is home to private schools
with approximately 1,500 students. Boulder's
estimated population is 108,707. Boulder has
one of the highest ratios of students per capita in
the country. Students are disproportionately
victims of mass shootings. Thus, the presence of
a large number of students in the city of Boulder
creates a higher than normal level of risk for the
community.
D. Assault
weapons
are
semi-automatic
firearms designed with military features to
E. Large capacity ammunition magazines (generally
defined as magazines capable of holding more than
10 rounds) are feeding devices that and may hold as
many as 100 rounds of ammunition.
F. Multi-Burst Trigger activators are devices that
effectively increase the rate at which a weapon can be
fired.
weapons
and/or
large
capacity
G. Assault
ammunition magazines have been the tools of choice
in many mass shootings of innocent civilians,
including those described below:
1. Parkland, Florida, February 14, 2018: a
shooter killed 17 and wounded 17 at Marjory
Stoneman Douglas High School with an AR-15style assault rifle.
2. Sutherland Springs, Texas, November 5,
2017: a shooter killed 26 and wounded 20 at the
First Baptist Church with a Ruger AR-556
assault rifle.
3. Las Vegas, Nevada, October 1, 2017: a
shooter killed 59 and wounded 527 armed with
23 guns, including both AR-15s and AK-47s as

App-46
well as at least one gun modified with a bump
stock. The following weapons were found inside
of the killer's hotel room:
a. Colt M4 Carbine AR-15 .223/5.56 with a
bump stock, vertical fore grip and 100 round
magazine.
b. Noveske N4 AR-15 .223/5.56 with a
bump stock, vertical fore grip and 40 round
magazine.
c. LWRC M61C AR-15 .223/5.56 with a
bump stock, vertical fore grip and 100 round
magazine.
d. POF USA P-308 AR-10 .308/7.62 with a
bipod, scope and 25 round magazine.
e. Christensen Arms CA-15 AR-15 .223
Wylde with a bump stock, vertical fore grip
and 100 round magazine.
f. POF USA P-15 P AR-15 .223/5.56
with a bump stock, vertical fore grip
and 100 round magazine.
g. Colt Competition AR-15 .223/5.56
with a bump stock, vertical fore grip and
100 round magazine.
h. Smith & Wesson 342 AirLite .38
caliber revolver with 4 cartridges and 1
expended cartridge case.
i. LWRC M61C AR-15 .223/5.56 with a
bump stock, vertical fore grip and 1008
round magazine.
j. FNH FM15 AR-10 .308/7.62 with a
bipod, scope and 25 round magazine .

App-47
k. Daniel
Defense
DD5Vl
AR-10
.308/7.62 with a bipod, scope and 25
round magazine.
l. FNH FN15 AR-15 .223/5.56 with a
bump stock, vertical fore grip and 10013
round magazine.
m. POF USA PIS AR-15 .223/5.56 with a
bump stock, vertical fore grip and 100
round magazine.
n. Colt M4 Carbine AR-15 .223/5.56
with a bump stock, vertical fore grip and
100 round magazine.
Defense
M4Al
AR-15
o. Daniel
.223/5.56 with a bump stock, vertical fore
grip and 100 round magazine.
p. .LMT Def. 2000 AR-15 .223/5.56 with
a bump stock, vertical fore grip and 100
round magazine.
q. Daniel Defense DDM4Vl 1 AR-15
.223/5.56 with a bump stock, vertical fore
grip. No magazine. EOTech optic.
r. Sig Sauer SIG716 AR-10 .308/7.62
with a bipod, red dot optic and 25 round
magazine.
s. Daniel
Defense
DD5Vl
AR-10
.308/7.62 with a bipod and scope. No
magazine.
t. FNH FN15 AR-15 .223/5.56 with a
bump stock, vertical fore grip and 100
round magazine.
u.

Ruger

American

.308

caliber bolt

App-48
action rifle with scope.
v. LMT LM308MWS AR-10 .308/7.62
with a bipod and red dot scope. No
magazine.
w. Ruger SR0762 AR-10 .308/7.62 with a
bipod, scope and round magazine.
x. LMT LM308MWS AR-10 With a bipod,
scope and 25 round magazine.
4. Orlando, Florida, June 12, 2016: a shooter
killed 49 and wounded 58 at the Pulse
Nightclub with an AR-15-style assault rifle
and a Glock 17 9mm handgun.
5. San Bernardino, California, December 2,
2015: two shooters killed 14 and wounded 22
using a DPMS AR-15-style assault rifle and a
Smith and Wesson M&P 15.
6. Newtown, Connecticut, December 14,
2012: a shooter killed 26 and wounded 2 at
Sandy Hook Elementary School with an AR-15style assault rifle. The killer murdered his
mother with a .22 caliber rimfire rifle. He also
had a Glock 10mm and a Sig Sauer 9mm.
7. Aurora, Colorado, July 20, 2012: a shooter
killed 12 and wounded 58 armed with a Smith
& Wesson M&P15 assault rifle and 100-round
ammunition magazines and a 23 Remington
870 pump shotgun. He also had a Glock 22 .40
caliber pistol.
8. Carson City, Nevada, September 6, 2011:
a shooter killed 4 and wounded 7 armed with
a Norinco Mak 90, that had been altered
from a semi-automatic assault weapon to a
fully-automatic machine gun.

App-49
9. Washington D.C. area, October 2002:
shooters killed 10 and wounded 3 during a
3-week rampage armed with a Bushmaster
XM-15 assault rifle.
10. Columbine, Colorado, April 20, 1999:
shooters killed 13 and wounded 21 at
Columbine High School armed with a TEC-9
assault pistol and several large capacity
ammunition magazines. The killers also had
two shotguns.
11. San Francisco, California, July 1, 1993: a
shooter killed 8 and wounded 6 armed with
TEC-9 assault pistols and 40- and 50-round
ammunition magazines. The suspect used a
Hell-Fire trigger, which is a type of multiburst trigger activator.
H. The City Council intends a narrow ban that
respects the constitutionally guaranteed right to
bear arms.
I. Americans constitute 4.4 percent of the
global population and own 42 percent of the
world's guns.
J. Worldwide a country's rate of gun ownership
correlates with the occurrence of mass
shootings.
K. This ordinance is a reasonable exercise of
the city's police powers to restrict access to
weapons that are of the type used in mass
shootings and that are designed to kill large
numbers of people quickly.
L. Because of Boulder's dense population and
high concentration of students the council
believes that it is necessary for the public safety

App-50
to adopt this ordinance.
M. Boulder hosts a large number of public
events creating crowds that are uniquely
vulnerable to mass shooters.
N. This ordinance will impact only a small
percentage of the weapons possessed by Boulder
residents.
BE IT ORDAINED BY THE CITY COUNCIL
OF THE CITY OF BOULDER, COLORADO:
Section 1. Section 5-1-1, "Definitions, " B.R.C.
1981, is amended to delete the definition of
"Illegal weapon."
Illegal weapon means a
blackjack, gas gun, metallic knuckles, gravity
knife or switchblade knife.:
Section 2. Section 5-8-2, "Definitions," B.R.C.
1981, is amended to read as follows:
5-8-2. - Definitions.
The following terms used in this chapter have
the following meanings unless the context
clearly requires otherwise:
About the person means sufficiently close to
the person to be readily accessible for immediate
use.
Assault weapon means:
(a) A.all semi-automatic firearms center-fire
rifles that have the capacitv to accept a
detachable magazine and that have with any of
the following characteristics:
(1a) A pistol grip or thumbhole stock
semiautomatic action rifles with a detachable

App-51
magazine With a capacity of twenty one or more
rounds.
(2b) All semiautomatic shotguns 1.with a
folding or telescoping stock or a magazine
capacity of more than six rounds or both.: or
(3c) Any protruding grip or other device to
allow the weapon to be stabilized with the
non-trigger hand. All semiautomatic pistols
that are modifications of rifles having the
same make, caliber, and action design but a
short barrel or modifications of automatic
'.Weapons originally designed to accept
magazines with a capacity of twenty one or
more rounds.
(b) All semi-automatic center-fire pistols that
have any of the following characteristics:
(l) Have the capacity to accept a magazine
other than in the pistol grip: or
(2) Have a secondary protruding grip or
other device to allow the weapon to be
stabilized with the non-trigger hand.
(c) All semi-automatic shotguns that have any
of the following characteristics:
(1) A pistol grip or thumbhole stock:
(2) Any feature capable of functioning as a
protruding grip that can be held by the nontrigger hand:
(3) A folding or telescoping stock:
(4) A fixed magazine capacity in excess of 5
rounds: or
(5) The capacity to accept a detachable

App-52
magazine.
(d) Any firearm which has been modified to be
operable as an assault weapon as defined
herein.
(e) Any part or combination of parts designed or
intended to convert a firearm into an assault
weapon, including a detachable magazine with a
capacity of twenty one or more rounds, or any
combination of parts from which an assault
weapon may be readily assembled if those parts
are in the possession or under the control of the
same person.
Constructive knowledge means knowledge of
facts or circumstances sufficient to cause a
reasonable person to be aware of the fact in
question.
Illegal weapon means an assault weapon,
large-capacity magazine, multi-burst trigger
activator, blackjack, gas gun, metallic knuckles,
gravity knife or switchblade knife.
Large-capacity
magazine
means
any
ammunition feeding device with the capacity to
accept more than 10 rounds, but shall not be
construed to include any of the following:
(a) A feeding device that has been permanently
altered so that it cannot accommodate more
than 10 rounds.
(b) A 22-caliber
feeding device.

tube

rim-fire

ammunition

(c) A tubular magazine that is contained in a
lever-action firearm.
(d) A pistol magazine designed to fit into a

App-53
pistol grip that has a capacity to hold no more
than 15 rounds.
Locked container means a secure container
which is enclosed on all sides and locked by a
padlock, key lock, combination lock, or similar
device.
Minor means a person
twenty-one years of age.

under

eighteen

Multi-Burst Trigger Activator means:
(a) A device that attaches to a firearm to allow
the firearm to discharge two or more shots in a
burst when the device is activated: or
(b) A
manual
or
power-driven
triggeractivating device that, when attached to a
firearm increases the rate of fire of that firearm.
Pistol Grip means a grip that protrudes
conspicuously beneath the action of the weapon
and that allows for a pistol stvle grasp in which
the web of the trigger hand (between the thumb
and index finger) can be placed below the top of
the exposed portion of the trigger while firing.
Provide means to give, lend, sell, or
otherwise place in an unsecured location where
a minor or other unauthorized or incompetent
person could foreseeably gain access to a
firearm.
Semi-automatic means a
single round for each pull
automatically
chambers
immediately after a round is

firearm that fires a
of the trigger and
a
new
round
fired.

Section 3. Section 5-8-10, "Possession of Illegal
Weapons," B.R.C. 1981, is amended to read as

App-54
follows:
5-8-10. - Possession and Sale of Illegal
Weapons.
(a) No person shall knowingly possess or sell or
otherwise transfer an illegal weapon.
(b) The defendant's knowledge that the weapon
was illegal is not an aspect of knowledge
required for violation of this section.
(c) Nothing in this section shall be construed to
forbid any person:
(l) Holding a Federal Firearms License
issued by the United States Government
from possession of anv firearm authorized
pursuant to such license:
(2) From possessing a weapon for which the
United States Government has issued a
stamp or permit pursuant to the National
Firearms Act:
(3) From possessing a handgun magazine so
long as the possession of the handgun and
magazine are in compliance with state law:
or
(4) Selling an illegal weapon to a person
identified in Section 5-8-25. "Exemptions
from this Chapter." B.R.C. 1981.
(d) Nothing in this section shall be deemed to
apply to any firearm that has been modified
either to render it permanentlv inoperable or to
permanently make it not an assault weapon.
(e) Nothing in this section shall be deemed to
restrict a person's ability to travel with a
weapon in a private automobile or other private

App-55
means of conveyance for hunting or for lawful
protection of a person's or another's person or
property while traveling into, though. or within.
the City of Boulder. regardless of the number of
times the person stops in the City of Boulder.
Section 4. Section 5-8-21, "Open Carriage of
Firearms in Carrying Cases Required," B.R.C.
1981, is amended to read as follows:
5-8-21. - Open Carriage of Firearms in
Carrying Cases Required.
Any person carrying a firearm off of the
person's property or outside of the person's
business or vehicle shall carry the firearm in a
carrying case. The carrying case must be
recognizable as a gun carrying case by a
reasonable person. A plain-shaped case must be
clearly marked to be deemed recognizable under
this
standard.
A
holster
satisfies
the
requirement of a carrying case for a pistol. The
carrying case must be openly carried and must
not be concealed on or about the person. This
section shall not apply to individuals who have a
permit to carry a concealed weapon issued
pursuant to state law. unless the weapon being
carried is an assault weapon.
Section 5. Section 5-8-22, "Defenses," B.R.C.
1981, is amended to read as follows:
5-8-22. - Defenses.
(a) It is an affirmative defense to a charge of
violating
sections
5-8-3,
"Discharge of
Firearms," 5-8-4, "Possessing and Discharging
Firearm or Bow in Park or Open Space," 5-8-5,
"Negligently Shooting Bow or Slingshot," 5-8-6,

App-56
"Aiming
Weapon
at
Another,"
5-8-7,
"Flourishing Deadly Weapon in Alarming
Manner," and 5-8-8, "Possession of Loaded
Firearms," B.R.C. 1981, that the defendant was:
(1) Reasonably engaged in lawful selfdefense under the statutes of the State of
Colorado; or
(2) Reasonably exercising the right to keep
and bear arms in defense of the defendant's
or another's home, person and property or in
aid of the civil power when legally thereto
summoned.

(b) It is a specific defense to a charge of
violating
sections
5-8-3,
"Discharge
of
Firearms," 5-8-4, "Possessing and Discharging
Firearm or Bow in Park or Open Space," and 58-8, "Possession of Loaded Firearms," B.R.C.
1981, that the events occurred in an area
designated as a target range by the city
manager under section 5-8-26, "City Manager
May Designate Target Ranges," B.R.C. 1981, for
the type of weapon involved. It is a specific
defense to a charge of violating section 5-8-4,
"Possessing and Discharging Firearm or Bow
in Park or Open Space," B.R.C. 1981, by
possession that the defendant was going directly
to or returning directly from such a target
range.
(c) It is an affirmative defense to a charge of
violating sections 5-8-8, "Possession of Loaded
Firearms," 5-8-9, "Carrying a Concealed
Weapon," and 5-8-11, "Possessing Firearm
While Intoxicated," B.R.C. 1981, that the
defendant was:

App-57

(1) In the defendant's own dwelling or place
of business or on property owned or under
the defendant's control at the time; or
(2) In a private automobile or other private
means of conveyance at the time and was
carrying the weapon for lawful protection of
the defendant's or another's person or
property while traveling; or
(3) Charged ,with carrying a knife that was
a hunting or fishing knife carried by the
defendant for sport use.
(d) It is a specific defense to a charge of
violating sections 5-8-8, "Possession of Loaded
Firearms," and 5-8-9, "Carrying a Concealed
Weapon,'' B.R.C. 1981, that the defendant was
carrying the weapon pursuant to a concealed
weapons permit valid under the statutes of the
State of Colorado.
(e) It is a specific defense to a charge of
violating
sections
5-8-3,
''Discharge
of
Firearms," and 5-8-8, "Possession of Loaded
Firearms," B.R.C. 1981, that the loaded gas or
mechanically operated gun was possessed or
discharged in a building with the permission of
the property owner and the projectile did not
leave the building.
(f) It is a specific defense to a charge of
violating section 5-8-10, ''Possession of Illegal
Weapons," B.R.C. 1981·;
(1) That the person had a valid permit for
such weapon pursuant to federal law at the
time of the offense-: or

App-58

(2) That the illegal weapon was an assault
weapon accompanied bv a certificate issued
by the Boulder Police Department.
(g) It is a specific defense to a charge of
violating
section
5-8-4,
"Possessing
and
Discharging Firearm or Bow in Park or Open
Space," B.R.C. 1981, that the firearm, as or
mechanically operated gun, bow, slingshot or
crossbow possessed by the person was being
transported in a motor vehicle. This defense
does not apply to a charge of violation involving
discharge of a missile.
Section 6. Section 5-8-25, "Exemptions from
Chapter," B.R.C. 1981, is amended to read as
follows:
5-8-25. - Exemptions from Chapter.
The following individuals are exempt from the
provisions of this Chapter:
(a) Nothing in this chapter shall be construed to
forbid Any officer of the United States including
but not limited to federal agents and United
States -Marshals, any sheriffs, constables and
their deputies; any regular or ex-officio police
officer; any other peace officers; or members of
the United States Armed Forces,
Colorado
National Guard or Reserve Officer Training
Corps from having in their possession,
displaying, concealing or discharging such
weapons as are necessary in the authorized and
proper performance of their official duties; or
(b) Any person authorized to carry a concealed
weapon under the Federal Law Enforcement

App-59
Officers Safety Act.
Section 7. A new Section 5-8-28, "Assault
Weapons," B.R.C. 1981, is added to read as
follows, and remaining sections in Chapter 5-8
are renumbered:
5-8-28. - Assault Weapons.
(a) Any person who, prior to June 15, 2018, was
legally in possession of an assault weapon large
capacity magazine shall have until December
31, 2018 to do any of the following without being
subject to prosecution:
(1) Remove the assault weapon or large
capacity magazine from the City of Boulder;
(2) Render the assault weapon permanently
inoperable;
(3) Surrender the assault weapon or large
capacity magazine to the Boulder Police
Department for destruction; or
(4) If eligible, obtain a certificate for the
assault weapon as provided in subsection.
(b) Any person who, prior to June 15, 2018, was
legally in possession of multi-burst trigger
activator shall have until July 15, 2018 to do
any of the following without being subject to
prosecution:
(1) Remove the multi-burst trigger activator
from the City of Boulder; or
(2) Surrender
the
multi-burst
trigger
activator to the Boulder Police Department
for destruction.
(c) Any person seeking to certify an assault

App-60
weapon that he or she legally possessed prior to
June 15, 2018 must comply with the following
requirements:
(1) Submit to a background
check
conducted
by the
appropriate law
enforcement agency to confirm that he or
she is not prohibited to possess a firearm
pursuant to 18 U.S.C. § 922 or C.R.S § 1812-108;
(2) Unless the person is currently prohibited
by law from possessing a firearm, prior to
December 31, 2018 apply for a certificate for
the assault weapon from the Boulder Police
Department;
(3) Safely and securely store the assault
weapon pursuant to the regulations adopted
by the appropriate law enforcement agency;
(4) Possess the assault weapon only on
property owned or immediately controlled by
the person, or while on the premises of a
licensed gunsmith for the purpose of lawful
repair, or while engaged in the legal use of
the assault weapon at a duly licensed firing
range, or while traveling to or from these
locations, provided that the assault weapon
is stored unloaded in a locked container
during
transport.
The
term
"locked
container" does not include the utility
compartment, glove compartment, or trunk
of a motor vehicle; and
(5) Report the loss or theft of a certified
assault weapon to the appropriate law
enforcement agency within 48 hours of the
time the discovery was made or should have

App-61
been made.
(d) If a certified assault weapon is used in the
commission of a crime, the owner shall be civilly
liable for any damages resulting from that
crime. The liability imposed by this subsection
shall not apply if the assault weapon was stolen
and the certified owner reported the theft of the
firearm to law enforcement within 48 hours of
the time the discovery was made or should have
been made.
(e) Certified assault weapons may not be
purchased, sold or transferred in the City of
Boulder, except for transfer to a licensed
gunsmith for the purpose of lawful repair, or
transfer to the appropriate law enforcement
agency for the purpose of surrendering the
assault weapon for destruction.
(f) Persons acquiring an assault weapon by
inheritance, bequest, or succession shall, within
90 days of acquiring title, do one of the
following:
(1) Modify the assault weapon to render it
permanently inoperable;
(2) Surrender the assault weapon to the
Boulder Police Department for destruction;
(3) Transfer the assault weapon to a
firearms dealer who is properly licensed
under federal, state and local laws; or
(5) Permanently remove the assault weapon
from the City of Boulder.
(g) The owner of a certified assault weapon may
not possess in the City of Boulder any assault
weapons purchased after June 15, 2018.

App-62

(h) The city manager shall charge a fee for each
certificate sufficient to cover the costs of
administering the certificate program.
(i) The city manager shall issue to qualified
applicants two original copies of each certificate
issued. The City of Boulder shall not maintain
any records of certificates issued. The person
receiving the certificate shall keep one copy with
the weapon certified and the second copy in a
secure place
to replace
the certificate
maintained with the weapon.
Section 8.
This ordinance is necessary to
protect the public health, safety, and welfare of
the residents of the city, and covers matters of
local concern.
Section 9.
The city council deems it
appropriate that this ordinance be published by
title only and orders that copies of this
ordinance be made available in the office of the
city clerk for public inspection and acquisition.

App-63
INTRODUCED, READ ON FIRST
READING, AND ORDERED PUBLISHED BY
TITLE ONLY this 5th day of April, 2018
/s/ Suzanna Jones
Suzanne Jones
Mayor
Attest:
/s/ Lynnette Beck
Lynnette Beck
City Clerk
READ ON SECOND READING AND
AMENDED this 1st day of May, 2018
/s/ Suzanna Jones
Suzanne Jones
Mayor
Attest:
/s/ Lynnette Beck
Lynnette Beck
City Clerk
READ ON THIRD READING, PASSED
AND ADOPTED this 15th day of May, 2018.
/s/ Suzanna Jones
Suzanne Jones
Mayor
Attest:
/s/ Lynnette Beck
Lynnette Beck
City Clerk

App-64
ORDINANCE 8259
AN ORDINANCE AMENDING CHAPTER 5,
"GENERAL OFFENSES," B.R.C. 1981,
TO
DELETE A PROVISION EXEMPTING CERTAIN
HANDGUN MAGAZINES AND TO CLARIFY
THE
CERTIFICATION
PROCESS
FOR
ASSAULT WEAPONS AND SETTING FORTH
RELATED DETAILS.
BE IT ORDAINED BY THE CITY COUNCIL
OF THE CITY OF BOULDER, COLORADO:
Section 1. Section 5-8-10, "Possession and Sale of
Illegal Weapons," B.R.C. 1981, is amended to read
as follows:
5-8-10.- Possession
Weapons.

and

Sale

of

Illegal

(a) No person shall knowingly possess or sell or
otherwise transfer an illegal weapon.
(b) The defendant's knowledge that the weapon
was illegal is not an aspect of knowledge required
for violation of this section.
(c) Nothing in this section shall be construed to
forbid any person:
(1) Holding a Federal Firearms License
issued by the United States Government from
possession of any firearm authorized pursuant
to such license;
(2) From possessing a weapon for which the
United States Government has issued a stamp
or permit pursuant to the National Firearms
Act;

App-65
(3) From possessing a handgun magazine so
long as the possession of the handgun and
magazine are in compliance with state law; or
(34)Selling an illegal weapon to a person
identified in Section 5-8-25, "Exemptions from
this Chapter," B.R.C. 1981.
(d) Nothing in this section shall be deemed to
apply to any firearm that has been modified either
to render it permanently inoperable or to
permanently make it not an assault weapon.
(e) Nothing in this section shall be deemed to
restrict a person's ability to travel with a weapon
in a private automobile or other private means of
conveyance for hunting,--or for lawful protection of
a person's or another's person or property or for
competition, while traveling into, though, or
within, the City of Boulder, regardless of the
number of times the person stops in the City of
Boulder.
Section 2. Section
5-8-25,
"Exemptions
from
Chapter," B.R.C. 1981, is amended to read as
follows:
5-8-25. - Exemptions from Chapter.
The following individuals are exempt from the
provisions of this Chapter:
(a) Nothing in this chapter shall be construed to
forbid the following persons from having in their
possession, displaying, concealing or discharging
such weapons as are necessary in the authorized and
proper performance of their official duties; Any
officer of the United States, including but not limited
to federal agents and

App-66
(1) United States Marshals,
constables and their deputies;

any sheriffs,

(2) any regular or ex-officio police officer;
(3) any other peace officers; or
(4) of the United States Armed Forces,
Colorado National Guard or Reserve Officer
Training Corps from having in their
possession,
displaying,
concealing
or
discharging such weapons as are necessary
in the authorized and proper performance of
their official duties; or
(b) Any person authorized to carry a concealed
weapon under the Federal Law, Enforcement
Officers Safety Act.
Section 3. Section 5-8-28, "Assault Weapons,"
B.R.C. 1981, is amended to read as follows:
5-8-28. - Assault Weapons.
(a) Any person who, prior to June 15, 2018, was
legally in possession of an assault weapon or large
capacity magazine shall have until December
31, 2018 to do any of the following without being
subject to prosecution:
(1) Remove the assault weapon or large
capacity magazine from the City of Boulder;
(2) Render the assault weapon permanently
inoperable;
(3) Surrender the assault weapon or large
capacity magazine to the Boulder Police
Department for destruction; or
(4) If eligible, obtain a certificate for the
assault weapon as provided in subsection (c).

App-67
(b) Any person who, prior to June 15, 2018, was
legally in possession of multi-burst trigger
activator shall have until July 15, 2018 to do any of
the following without being subject to prosecution:
(1) Remove the multi-burst trigger activator
from the City of Boulder; or
(2) Surrender the multi-burst trigger activator
to the Boulder Police Department for
destruction.
(c) Any person seeking to certify an assault
weapon that he or she legally possessed prior to
June 15, 2018 must comply with the following
requirements:
(1) Submit to a background check conducted
by the appropriate law enforcement agency
to confirm that he or she is not prohibited to
possess a firearm pursuant to 18 U.S.C. §
922 or C.R.S § 18-12-108;
(2) Unless the person is currently prohibited
by law from possessing a firearm, prior to
December 31, 2018 apply for a certificate for
the assault weapon from the Boulder Police
Department;
(3) No person prohibited by state or federal
law from possessing a firearm shall be issued
a certificate.
(d) Any person issued a certificate shall:
(31)Safely and securely store the assault
weapon pursuant to the regulations adopted
by the appropriate law enforcement agency;
(42) Possess the assault weapon only on
property owned or immediately controlled by

App-68
the person, or while on the premises of a
licensed gunsmith for the purpose of lawful
repair, or while engaged in the legal use of
the assault weapon at a duly licensed firing
range, or while traveling to or from these
locations, provided that the assault weapon
is stored unloaded in a locked container
during
transport.
The
term
"locked
container" does not include the utility
compartment, glove compartment, or trunk
of a motor vehicle; and
(53) Report the loss or theft of a certified
assault weapon to the appropriate law
enforcement agency within 48 hours of the
time the discovery was made or should have
been made.
(de) If a certified assault weapon is used in the
commission of a crime, the owner shall be civilly
liable for any damages resulting from that crime.
The liability imposed by this subsection shall not
apply if the assault weapon was stolen and the
certified owner reported the theft of the firearm
to law enforcement within 48 hours of the time
the discovery was made or should have been
made.
(ef) Certified assault weapons may not be
purchased, sold or transferred in the City of
Boulder, except for transfer to a licensed
gunsmith for the purpose of lawful repair, or
transfer to the appropriate law enforcement
agency for the purpose of surrendering the
assault weapon for destruction.
(fg) Persons acquiring an assault weapon by
inheritance, bequest, or succession shall, within

App-69
90 days of acquiring title, do one of the
following:
(1) Modify the assault weapon to render it
permanently inoperable;
(2) Surrender the assault weapon to the
Boulder Police Department for destruction;
(3) Transfer the assault weapon to a
firearms dealer who is properly licensed
under federal, state and local laws; or
(4) Permanently remove the assault weapon
from the City of Boulder.
(gh) The owner of a certified assault weapon may not
possess in the City of Boulder any assault weapons
purchased after June 15, 2018.
(hi) The city manager shall charge a fee for each
certificate sufficient to cover the costs of
administering the certificate program.
(ij) The city manager shall issue to qualified
applicants two original copies of each certificate
issued. The City of Boulder shall not maintain any
records of certificates issued. The person receiving
the certificate shall keep one copy with the
weapon certified and the second copy in a secure place
to replace the certificate maintained with the
weapon.
Section 4. This ordinance is necessary to protect the
public health, safety, and welfare of the residents of
the city, and covers matters of local concern.
Section 5.
The
city
council
deems
it
appropriate that this ordinance be published by title
only and orders that copies of this ordinance be
made available in the office of the city clerk for

App-70
public inspection and acquisition.
INTRODUCED, READ ON FIRST READING,
AND ORDERED PUBLISHED BY TITLE ONLY this
5th day of June 2018.
/s/ Suzanna Jones
Suzanne Jones
Mayor
Attest:
/s/ Lynnette Beck
Lynnette Beck
City Clerk

App-71
READ ON SECOND READING, PASSED
AND ADOPTED this 19th day of June 2018.
/s/ Suzanna Jones
Suzanne Jones
Mayor
Attest:
/s/ Lynnette Beck
Lynnette Beck
City Clerk

